          Office of the Inspector General
 Corporation for National and Community Service

                     Semiannual Report to the Congress
                                       for the period
                    October 1, 1998 -March 3 1, 1999
                                      Fiscal Year 1999
                                   Semiannual Report No. 1




As required by the Inspector General Act of 1978, as amended, this report describes our activities
and accomplishments for the first half of fiscal year 1999. Section 5 of the Act requires that the
Corporation's Chief Executive Officer submit this report to the Congress and the Corporation's
Board of Directors.
                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i

                                                                                                                                ...
IG ACT REPORTING REQUIREMENTS ........................................................................                          111



AUDIT SECTION
   Financial Management .................................................................................................... 1
   Procurement Management .............................................................................................. 5
   Grant Management and Oversight .................................................................................. 6
   Audit Reports Issued During the Period October 1. 1998 through March 3 1. 1999 ........ 10
   Audit Resolution ............................................................................................................. 11


INVESTIGATIONS SECTION

   Highlights of Investigations Closed During This Reporting Period ............................. 12
   Previously Reported Matters ......................................................................................... 14
   Statistical Summary of Investigations .......................................................................... 16


REVIEW OF LEGISLATION & REGULATIONS

   Review of Legislative Matters ...................................................................................... 17
   Review of Corporation-Proposed Regulations ............................................................. 19


TABLES

    Table I         Inspector General Reports With Questioned Costs ..................................... 20
    Table I1        Inspector General Reports With Recommendations
                        That Funds Be Put To Better Use .......................................................... 21
    Table I11           Summary of Audits With Overdue Management Decisions ................. 22
    Table IV            Reports Described In Prior Semiannual Reports
                        Without Final Action ............................................................................. 23
    Table V         Status of Recommendations On Corporation Management Issues .............. 24
                          EXECUTIVE SUMMARY
AUDITS & REVIEWS                                       Corporation Action Plans

During this semiannual reporting period, we            As requested by Congress, OIG reviewed
issued eight audit reports, including reports on       the Corporation's "Action Plan" for
the Corporation's financial statements and             improving its financial management
internal controls, and its Action Plan for             operations (page 3).
financial management improvement mandated
                                                       Procurement Management
by Congress. Summaries of all audit reports
issued during this period are on pages 1               Our audit of the Corporation's contract with
through 11. We are also reporting on the               Advanced Systems Technology Corporation
results of our audit of the Corporation's fiscal       resulted in questioned costs in excess of
year 1998 financial statements, issued on              $700 thousand (page 5).
April 9, 1999.
                                                       Grant Management and Oversight
Financial Management
                                                       Our audits of the Corporation's grant with
Our audit of the Corporation's fiscal year 1998        the Congressional Hunger Center concluded
financial statements resulted in an unqualified        that the Corporation did not adequately
opinion on the Corporation's Statement of              monitor and oversee the grant.         We
Financial Position at September 30, 1998;              questioned more than $200 thousand of
however, the auditors were unable to render an         Congressional Hunger Center's incurred
opinion on the Statement of Operations and             costs (page 6).
Changes in Net Position, and the Statement of
Cash Flows for the fiscal year.                        Our review of the Corporation's liability for
                                                       post-service benefits related to former
While the Corporation has made some                    Commission grants identified over $142
progress toward producing auditable                    thousand drawn down by grantees in excess
financial reports, eight areas of the                  of their needs (page 8).
Corporation's financial operations were
cited as materially weak: financial                    Audit Resolution
management      and      reporting,   the              The Corporation's Action Plan indicates that
Corporation's general control environment,             it plans to revise its audit resolution process
grant management, financial systems, the               by the end of April. OIG provided
National Service Trust, fund balance with              comments on a draft in November 1998. In
Treasury, net position reporting, and the              April 1999, we received a revision of the
recording and reporting of revenue from                draft (page 11).
reimbursable agreements (page 1).




                                                   1                      FY99 Semiannual Report No. I
                                                   EXECUTIVE SUMMARY

INVESTIGATIONS                                     the National Service Trust regulation, the
                                                   Privacy Act and system of records
During this semiannual reporting period we         regulation, and the debt collection regulation
received and processed 22 Hotline calls,           (page 19).
opened 22 investigative actions, and
completed 20 investigative actions. We             TESTIMONY
referred three matters to the Department of
Justice for a prosecutive determination and        The Inspector General testified on the
two matters for Affirmative Civil                  Corporation's control weaknesses and other
Enforcement (page 16).                             related matters before the Veterans Affairs,
                                                   HUD, and Independent Agencies
We referred three reports to Corporation           Subcommittee of the Senate Committee on
management         documenting      various        Appropriations on March 11, 1999.
conditions we found that were conducive to
fraud, waste, or abuse. The reports were           The Assistant Inspector General for Audit
provided in an effort to assist management         testified on the Corporation's efforts to
in increasing Government integrity and             make its computer systems Year 2000
improving program operations and                   compliant before the Subcommittee on
effectiveness. The referrals to management         Oversight and Investigations of the House
related to allegations of improprieties            Committee on Education and the Workforce
involving appointment to the permanent             on October 8, 1998.
cadre of the National Civilian Community           OUTREACH EFFORTS
Corps (page 13), allegations of worker's
compensation fraud (page 13), and potential        The Inspector General spoke at a
ethics violations (page 14).                       Corporation AmeriCorps Grants Conference
                                                   on the role of the OIG with regard to
REVIEW OF LEGISLATION &                            Corporation grantees, and the grant
REGULATIONS                                        oversight and management deficiencies that
We reviewed legislation and proposed               have been repeatedly found in our grant
legislation including a proposal to                audits and investigations.
reauthorize the Corporation, the Kennedy           As a part of our ongoing fraud prevention
Reauthorization Bill (page 17).        We          efforts, the Assistant Inspector General for
reviewed the Corporation's compliance with         Investigations provided a Fraud Awareness
the Federal Vacancies Reform Act (page             presentation for the Directors of the
IS), and the Government in the Sunshine            Corporation's Southern Cluster State
Act (page 19). We also reviewed the                Program Offices. The presentation included
Corporation's annual appropriations acts to        discussing our more prevalent findings and
determine restrictions and reporting               recommendations for the managers to enable
requirements (page 19). Finally, we                them to detect and report fraud in its early
reviewed and provided comments to the              stages.
Corporation on three proposed regulations,

                                              ..                     FY99 Semiannual Report No. 1
                                              11
           IG ACT REPORTING REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.


   Requirement                                                                           Page

 Section 4 (a)(2)     Review of legislation and regulations.                               17
 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the   Throughout
                      administration of Corporation programs and operations.
 Section 5 (a)(2)     Recommendations with respect to significant problems,           Throughout
                      abuses, and deficiencies found in the administration of
                      Corporation programs and operations.
 Section 5 (a)(3)     Prior significant recommendations on which corrective
                                                                                           23
                      action has not been completed.
 Section 5 (a)(4)     Matters referred to prosecutive authorities.                         12
 Section 5 (a)(5)     Summary of instances where information was refused.              None this
                                                                                        period
 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value
                      of questioned costs and recommendations that funds be put            11
                      to better use.
 Section 5 (a)(7)     Summary of each particularly significant report.                Throughout
 Section 5 (a)(8)     Statistical table showing number of reports and dollar value
                                                                                           20
                      of questioned costs.
 Section 5 (a)(9)     Statistical table showing number of reports and dollar value
                      of recommendations that funds be put to better use.                  21

 Section 5 (a)(10)    Summary of each audit issued before this reporting period
                      for which no management decision was made by end of                  22
                      reporting period.
 Section 5 (a)(l 1)   Significant revised management decisions.                        None this
                                                                                        period
 Section 5 (a)(12)    Significant management decisions with which the Inspector        None this
                      General disagrees.                                                period




                                                  ...                    FY99 Semiannual Report No. 1
                                                 111
                                          AUDIT SECTION

The Oflice of the Inspector General Audit Section is responsible for reviewing financial,
administrative, and program aspects of Corporation operations. It carries out these responsibilities
by conducting the audit of the Corporation's annual financial statements, evaluating the
Corporation's management controls, auditing Corporation operations, and auditing individual
grants, contracts, and cooperative agreements fimded by the Corporation. All OIG audit reports
are referred to Corporation management for action or information. Additionally, the Audit Section
advises and assists the Corporation in resolving audit recommendations. During this reporting
period, most of the Audit Section's work was related to our audit of the Corporation's fiscal year
1999 financial statements. We issued our report on the results of the audit on April 9, 1999. A list
of the reports issued by the Audit Section during this period can be found on page 10.

                                     FINANCIAL MANAGEMENT
Audit of the Corporationfor National and Community Service's Fiscal Year 1998 Financial
Statements (Audit Report 99-12)
The Government Corporation Control Act (3 1 U.S.C. 9101 et seq.), requires OIG to annually
audit the financial statements of the Corporation. To fulfill this requirement, OIG engaged
KPMG to audit the Corporation's fiscal year 1998 financial statements. The audit, conducted
in accordance with government auditing standards, included extensive audit procedures to
overcome known material weaknesses and other pervasive systems deficiencies. As a result,
KPMG was able to issue an unqualified opinion on the Corporation's Statement of Financial
Position at September 30, 1998; however, due to deficiencies in the Corporation's financial
systems and management's inability to explain certain adjustments made to the accounting
records, KPMG was unable to render an opinion on the Statement of Operations and Changes
in Net Position, and the Statement of Cash Flows for the fiscal year.
The report also notes that, while the Corporation has made some progress toward producing
auditable financial reports, serious financial management issues remain. The report discusses
eight areas of the Corporation's financial operations that are materially weak: financial
management and reporting, the Corporation's general control environment,' grants management,
financial systems, the National Service Trust, fund balance with Treasury, net position
rep~rting,~and the recording and reporting of revenue from reimbursable agreements. Systems,
1
  Control environment factors include commitment to competence, management philosophy and operating style, organizational
structure, and assignment of authority and responsibility. The control environment sets the tone of an organization, influences
the level of control consciousness, and provides the discipline and structure of an organization.

  The report cites the Corporation's failure to properly adjust obligations for expired grants and other expired obligations as
well as errors in reporting results of operations. Material adjustments were required to correct the financial statements for both
of these conditions.



                                                                 1                           FY99 Semiannual Report No. 1
                                                                                  A UDITS
internal controls, record keeping and accounting procedures in these areas were first reported to
the Corporation as material weaknesses in 1996.

In the area of financial management and reporting, the report cites the need to record material
adjustments, ranging from $1.4 million to $106 million, to the financial statements, as a result
of the financial management weaknesses. Certain of the adjustments also impact the
Corporation's budgetary accounts and reports. For example, an adjustment to reduce the service
award liability by $106 million in the National Service Trust was necessary to fairly state the
liability at September 30, 1998. The Corporation's initial calculation of the service award
liability was made on a very conservative basis, assuming that all members enrolled as of
September 30, 1998, had earned awards, and that all awards earned would ultimately be used.
Historical experience now indicates that not all member slots result in earned awards, and that
only about 80 percent of earned awards will be used. Calculation of the service award liability
on a more realistic basis will provide the Corporation with a better indication of the available
Trust Fund surplus, which should be considered in the annual budget process. The report also
repeats two areas of non-compliance with laws and regulations: the Corporation's failure to
establish an effective system to assess and report on its internal controls as required by the
Government Corporation Control Act and the Corporation's substantial non-compliance with
Federal financial systems requirements.

Audit of the Corporation for National and Community Service Statement of Financial
Position, September 30,1997 (Audit Report 99-01) and Recommended Improvements to the
Corporation's Internal Controls (Audit Report 99-02)

At the beginning of this reporting period, we issued two reports related to our audit of the
Corporation's fiscal year 1997 Statement of Financial Position (Audit Report 99-01, Audit of the
Corporationfor National and Community Service Statement of Financial Position, September
30, 1997; and Audit Report 99-02, Recommended Improvements to the Corporation 's Internal
Controls).

The audit of the Corporation's fiscal year 1997 statements was limited in scope to the Statement
of Financial Position (balance sheet) because the Corporation determined that it had not made
sufficient progress in correcting material internal control weaknesses previously identified by
the OIG. The auditors' report on the September 30, 1998, balance sheet was qualified because
of the Corporation's inability to provide sufficient evidence to support the reasonableness of the
amounts recorded for grant advances, grants payable, and the component balances of net position
at September 30, 1997. The report also cited six areas of material weaknesses. Audit Report
99-02, Recommended Improvements to the Corporation's Internal Controls, was issued as a
management letter and included additional recommendations for improvements in internal
control.



                                                 2                    FY99 Semiannual Report No. 1
                                                                                                        A UDITS
In its response to the reports, the Corporation generally agreed with the findings and described
some of the actions it was taking to address the conditions identified. The Corporation's "Action
Plan" (see below) also describes the Corporation's plans to address its control deficiencies.

Reviews of the Corporation for National and Community Service Action Plan
(Audit Reports 99-1 7 and 99-23)

The House of Representatives Conference Committee Report accompanying HR 105-769
required that the Corporation submit to the House and Senate Committees on Appropriation a
detailed Plan for the expenditure of certain fimds for financial management reforms and provide
Plan updates every 60 days on the use of the funds. The Conference Committee Report directs
OIG to independently review and comment upon the Plan and each update within 30 days of
their submission to the Congress. The Corporation submitted its "Action Plan," to Congress on
December 21, 1998, and its first update on February 19, 1999. In response to the Conference
Committee's requirement OIG issued its analysis of the December 21" Action Plan (Report
Number 99-17) on January 13,1999, and our analysis of the February 19 update (Report Number
99-23) on March 19, 1999.

         The Corporation's Plan -

The Corporation's Action Plan represents the most comprehensive and ambitious effort to date
by the Corporation to address weaknesses in its financial management. As revised in February
1999, it lists nine high level management goals and includes a schedule for completing 177 tasks
related to 40 objectives, most of which are intended to remediate material weaknesses and other
deficiencies previously reported in numerous OIG audits and reported by the National Academy
of Public Admini~tration.~     However, because of weaknesses in the Corporation's accounting
system and the nature of the Action Plan, two issues arise related to OIG's ability to report
meaningful information to Congress on the expenditure of funds and the effectiveness of
corrective actions as indicated in the Conference Report.

First, the Corporation lacks a reliable cost accounting system to track cost estimates related to
the $3 million earmarked for financial management reform^.^ The Corporation estimates that
it will spend $1.6 million for staff (by reassigning current staff and hiring additional personnel),
primarily to prepare the Corporation's financial statements, "clean up" accounting data, and
implement a new financial management system. The Corporation also estimates that it will
spend $1.4 million for contracts, primarily to develop a grants management system, train staff,

3
  Corporationfor National Service: Strengthening Organizational EfSectiveness and Service Delivery, a report from a Panel of
the National Academy of Public Administration (undated).

4
 The Corporation's fiscal year 1999 appropriation provided $1.5 million in new funds and required the Corporation to redirect
an additional $1.5 million to be spent on financial management reforms and other urgent program administrative needs.



                                                              3                          FY99 Semiannual Report No. 1
                                                                                   A UDITS
and to expand a pilot project for an internet based system that allows grantees to report
information on AmeriCorps Members to the Corporation electronically. Although the
Corporation provided OIG with supporting documentation for some of these cost estimates, it
has not provided information on actual amounts expended to date, and has not established an
alternative means of systematically tracking these expenditures. 01G expects that after
completion of the Plan, there will be evidence to support the $1.4 million in contracted services,
and payroll data to support the portion of the $1.6 million in staff costs that are dedicated to
Action Plan tasks. However, approximately $565 thousand (19 percent) of the $3 million
estimate relates to staff who will spend an undocumented portion of their time on Action Plan
tasks. The Corporation has stated that the staff will not maintain records to support time spent
on these tasks. Therefore, for these charges, OIG and Congress will have to rely on
management's assertions.

Second, most, if not all, of the tasks necessary to achieve a given objective must be completed
by the Corporation before OIG can assess their effectiveness. Given the nature of the Plan,
intermediate or periodic review by OIG, before the completion of most of the tasks within an
objective, cannot provide the Conferees with a great deal of useful information. Under the
current schedule, most of the objectives will not be completed until the second half of fiscal year
1999 at the earliest.
        The Corporation 's Progress to Date
As of February 19, 1999, the Corporation reported that 69 tasks had been completed. However,
30 of these tasks were already completed when the Corporation sent the December 2 1, 1998
Action Plan to Congress. Moreover, the February revision of the Action Plan extended the
milestones for 35 tasks. Although the Corporation provided explanations for some extensions,
the February version is silent as to the reasoning behind others. Importantly, five of the extended
completion dates are tasks needed to implement the Corporation's new financial management
system (Goal five).

The Corporation is still very early in the process of this Plan, and numerous action items are not
yet scheduled for completion. As expected, the tasks completed to date are not concentrated
within any particular goal, and, with the exception of two objectives related to Year 2000
compliance, no individual objective under any goal is complete. Consequently, OIG cannot
conclude as to the extent of improvements resulting from the Corporation's efforts to date.
        Additional OIG Assessment Efforts
In addition to responding to each of the Corporation's submissions within the 30-day time fi-ame
established in the Conferees' report, OIG will expand its reporting to include a comprehensive
study of the Corporation's progress to improve its financial management. The study will be
performed during the final quarter of this fiscal year after the scheduled completion date of most
of the Corporation's efforts under the Plan.

                                                  4                    FY99 Semiannual Report No. I
                                                                                A UDITS

                        PROCUREMENT MANAGEMENT

During fiscal year 1998 OIG audited the Corporation's procurement operations (OIG Report
98-24, Audit of the Corporation 's Procurement and Contracting Processes and Procedures).
The audit revealed material weaknesses in the Corporation's award, monitoring, and oversight
of its contracts and cooperative agreements and that the Corporation's procurement process is
vulnerable to fraud, waste, and mismanagement. Because of the pervasive nature of these
deficiencies, OIG scheduled a number of the Corporation's individual contracts and cooperative
agreements for audit. These audits are intended to assess whether the costs are allowable,
adequately supported, and charged in accordance with the terms of the contract or training and
technical assistance agreement, and applicable laws and regulations. Results from the first of
these audits follows.

Audit of Corporation for National and Community Service Contracts No. 96- 743-1002 and
No. 97-743-1005 With Advanced Systems Technology Corporation (Audit Report 99-11)

OIG engaged Cotton & Company to audit the amounts claimed by Advanced Systems
Technology Corporation (ASTEC) under Contracts No. 96-743-1002 and No. 97-743-1005.
ASTEC provided management consultants and other personnel to assist Corporation staff in
canying out Corporation operations and training and technical assistance under these time-and-
materials contracts. The audit covered the costs claimed ($4,881,387) during the period from
April 1, 1996 through September 30, 1998, and included tests to determine whether costs
reported to the Corporation were documented and allowable in accordance with the terms and
conditions of the contract.

The auditors found that ASTEC:

    Claimed costs for work performed by employees in labor categories and at labor rates not
    included in the contract or contract modifications;

    Claimed costs for employees who did not meet qualifications stated in the contract for that
    labor category;

    Claimed costs for insurance that should have been recovered through ASTEC's indirect costs
    rates used as the basis for the negotiated labor rates included in the contract;

    Claimed costs in excess of cost ceilings for certain work orders; and

    Claimed travel costs that were not supported by adequate source documentation or were not
    allocable under the Federal Travel Regulation as required under the contract.



                                                5                   FY99 Semiannual Report No. 1
                                                                                     A UDITS
As a result, we questioned $721,663 (15 percent) in costs claimed by ASTEC under the contract.
In its response to the report, the Corporation stated that it had reviewed the draft but did not have
specific comments at this time and plans to address the findings and recommendations as part
of the audit resolution process. ASTEC generally agreed with the findings, but disagreed with
the questioned costs, asserting that it was following the Corporation's guidance in carrying out
the contract.


                  GRANT MANAGEMENT AND OVERSIGHT

The Corporation awards National and Community Service Act (NCSA) and Domestic Volunteer
Service Act (DVSA) grants to state and local governments, institutions of higher education, and
other not-for-profit organizations. Grantees are required, among other things, to expend funds
only for allowable costs and provide periodic reports to the Corporation to demonstrate
programmatic and financial compliance with the terms of the respective grant agreements. The
Corporation is responsible for ensuring that grantees comply with applicable laws and
regulations related to the administration of the respective grant awards, including those related
to Federal cash management requirements.

The OIG Audit Section performs both audits of the Corporation's oversight of grantees and
audits of specific grants to assess whether reported costs were allowable under Federal
regulations and whether grantees complied with the terms and conditions of the award. Each of
our reports on Corporation grants contains recommendations for correcting the deficiencies
identified in the reports. Typically, the recommendations related to specific grants are for the
grantee to reimburse questioned costs and to establish and implement policies and procedures
to prevent future instances of non-compliance and improve internal controls. During this
reporting period, we issued two reports related to the Corporation's grant to the Congressional
Hunger Center.

Audit of Congressional Hunger Center Cooperative Agreement No. 96ADNDC099
(Audit Report 99-04)

We engaged Leonard G. Birnbaurn and Company to perform an audit of the amounts claimed
by Congressional Hunger Center under Cooperative Agreement No. 96ADNDC099. The audit
covered the costs ($1,978,804) claimed during the grant period from October 1, 1996 through
March 31, 1998, and included tests to determine whether financial reports prepared by
Congressional Hunger Center presented fairly the financial condition of the award, and whether
the award costs reported to the Corporation were documented and allowable in accordance with
the terms and conditions of the award.




                                                   6                     FY99 Semiannual Report No. I
                                                                                A UDITS
The auditors found numerous compliance and internal weakness including that Congressional
Hunger Center:

   Claimed costs that did not benefit the program or were unnecessary;

   Claimed costs which were not supported by adequate source documentation;

   Did not meet the minimum matching requirements for the 96/97 program year;

   Claimed living allowances and benefits, including health care, for participants of another
   program; and

   Drew down funds from the Corporation in excess of its immediate cash needs.

As a result, we questioned $239,940 (12 percent) in costs claimed under the award.

In its response to the report, the Corporation stated that it had not performed a comprehensive
analysis of the findings and could not provide detailed comments or specifically concur with the
recommendations at this time. Congressional Hunger Center generally concurred with the
findings.

Evaluation of the Corporation's Monitoring and Oversight of Cooperative Agreement No.
96ADNDC099 Awarded to Congressional Hunger Center (Audit Report 99-05)

We also engaged Leonard G. Birnbaum and Company to evaluate the Corporation's monitoring
and oversight of the award to the Congressional Hunger Center. The auditors concluded that the
Corporation did not adequately monitor and oversee the award to Congressional Hunger Center.
Specifically, the auditors found that:
   Monitoring and oversight visits made to Congressional Hunger Center and its subrecipient
   sites focused primarily on programmatic issues rather than financial management. As a
   result, substandard financial management by Congressional Hunger Center was not detected
   on a timely basis.

    The Corporation did not monitor the cash advanced to, or the Federal Cash Transactions
    Reports submitted by, Congressional Hunger Center. As a result, drawdowns of cash in
    excess of requirements were not detected on a timely basis.

    The Corporation did not ensure that Congressional Hunger Center evaluated its program for
    the 96/97 program year. As a result, the Corporation lacks the information necessary to
    assess the quality of the program.



                                                7                    FY99 Semiannual Report No. 1
    The Corporation's procedures to ensure that Congressional Hunger Center completed and
    submitted the Annual Accomplishment Report to the Corporation's evaluation contractor
    were inadequate. As a result, the Corporation was not aware of the fact that Congressional
    Hunger Center had failed to submit the report for the 96/97 program year.
In responding to this report the Corporation stated that, while it disagreed with the firm's
conclusion that the Corporation did not adequately monitor and oversee the award to
Congressional Hunger Center, it would review and revise its monitoring and oversight
procedures.

Review of Corporationfor National and Community Service Liabilityfor Post-service Benefits
Related to the Former Commission on National and Community Service Grants
(Audit Report 99-06)

OIG engaged Leonard G. Birnbaum and Company to review of the Corporation's liability for
post-service benefits related to the former Commission on National and Community Service
 grant^.^ The review was performed to identifl those Commission grants which still provided for
post-service benefits and the amounts of Federal hnds budgeted for those benefits; to determine,
for the grantees identified, those which drew down the entire amount of Federal funds awarded;
and to provide estimates of the contingent liability for post-service benefits related to the former
Commission grants recorded in the Corporation's Statement of Financial Position at September
30, 1997, and September 30, 1998.

Based on their review, the auditors estimated that the Corporation's post-service liability related
to former Commission grants was $2.0 million and $1.9 million at September 30, 1997, and
September 30, 1998, respectively. The auditors also found that out of 45 grantees identified,
three grantees had drawn down funds in excess of their needs, totaling $142,035, and 15 had
drawn down all Federal funds awarded by the former Commission.

Based on information from this and other reports: OIG recommended that the Corporation:
    Clearly establish who in the organization will be responsible for monitoring and closing out
    the former Commission grants;



  As a result of the National and Community Service Act of 1993, the Commission on National and Community Service merged
into the Corporation for National and Community Service, which assumed responsibility for grants awarded by the Commission.
The Act also established audit responsibility for all programs administered by the Corporation, as well as grants awarded by
the former Commission, in its Office of the Inspector General.

6
  In OIG Audit Report 98-23, Auditability Assessment of the Corporation for National Service at September 30, 1997, we
reported that the Corporation had not established procedures to monitor disbursements from these grants or to appropriately
close out grants.



                                                              8                          FY99 Semiannual Report No. I
                                                                                                        A UDITS
   Establish a process to close out the grants within the next year;
   Require grantees to return excess funds; and,
   Resolve, with the Office of Management and Budget, the issue of funding for post-service
   benefits where the appropriation authority has lapsed.

In its response to the report, the Corporation stated that it agreed with the recommendations and
that it would implement corrective actions.



    Summary of Grant Audit Reports Issued October 1,1998 through March 31,1999

                                                                                         Other Reported Issues




   Congressional Hunger Center Cooperative
   Agreement No. 96ADNDC099
   (OIG Report 99-04)

   Corporation's Monitoring and Oversight of
   Cooperative Agreement 96ADNDC099
   Awarded to Congressional Hunger Center
   (OIG Report 99-05)

    Review of Corporation for National and
    Community Service Liability for Post-                                NIA
    service Benefits related to Former
    Commission on National and Community


    Total Questioned Costs (Federal & Match)*



    *The amounts reported above include both Federal grant hnds and funds provided by grantees as match. The amount
    of Federal dollars questioned is presented in the summary listing of audit reports issued on page 11 of this report.




                                                              9                           FY99 Semiannual Report No. 1
                                                                                        A UDITS


                 AUDIT REPORTS ISSUED DURING THE PERIOD
                  OCTOBER 1,1998 THROUGH MARCH 31,1999

                                                                            Federal         Federal
Report   Issue                                                              Dollars         Dollars
Number   Date                           Report Name                        Questioned     Unsupported

                                                                               (Dollars in thousands)

                    Audit of the Corporation for National and
                    Community Service Statement of Financial
                    Position, as of September 30, 1997
                    Recommended Improvements to the Corporation's
                    Internal Controls (Management Letter)


                    Audit of Congressional Hunger Center Cooperative
                    Agreement No. 96ADNDC099
                    Evaluation of the Corporation's Monitoring and
                    Oversight of Cooperative Agreement Awarded to
                    Congressional Hunger Center

                    Review of the Corporation's Liability for Post-
                    service Benefits Related to Former Commission on
                    National and Community Service Grants

                    Audit of Corporation for National Service Contracts
                    with Advanced Systems Technology Corporation


                    Review of the Corporation's December 2 1, 1998
                    Action Plan
                    Review of the Corporation's February 19, 1999
                    Action Plan Progress Report

                    TOTAL




                                                10                        FY99 Semiannual Report No. I
                                                                                         A UDITS
                                   AUDIT RESOLUTION

In its Action Plan, the Corporation indicates that it will, by the end of April 1999, revise and
implement new procedures for resolving audit findings. OIG provided comments on the
proposed process in November 1998. On April 7, 1999, the Corporation issued a draft of its
proposed procedures.

During this reporting period the Corporation made Management Decisions on seven OIG reports
with questioned costs totaling $1.25 million. In these decisions the Corporation disallowed
$265 thousand (21 percent) and allowed $991 thousand (79 percent) of the costs questioned in
the OIG reports (see Table I, Inspector General Reports with Questioned Costs, page 20). For
costs questioned by OIG due to the lack of supporting documentation, the Corporation
disallowed $21 thousand out of $88 thousand (24 percent) of the costs.


               Management Decisions on OIG Reports With Questioned Costs


                                                         Federal Questioned Costs*


                                                  Allowed                 Disallowed         Total


                                                             (Dollars in thousands)

     Overall                                    $991       79%           $265         21%    $1,256


     Unsupported


     *The management decisions relate to Federal questioned costs identified in previous Semiannual
     Reports. The amount allowed represents costs claimed by a grantee and questioned in an audit that
     management subsequently determined were allowable. The amount disallowed represents questioned
     costs sustained by management.




                                                    11                      FY99 Semiannual Report No. 1
                     INVESTIGATIONS SECTION

We began this reporting period with 22 previously opened investigative actions. During the
reporting period we opened 22 new investigative actions and closed 20. We had 24 investigative
actions pending at the end of this reporting period.


                HIGHLIGHTS OF INVESTIGATIONS CLOSED
                   DURING THIS REPORTING PERIOD
Director of AmeriCorps-Funded Program Convicted of Theji and Sentenced

We completed an investigation that we opened after learning that Corporation management was
notified that an individual might have been certified to receive two educational awards when in
fact the individual was not an AmeriCorps Member and had not performed any qualifying
service.

Our investigation disclosed that the former Executive Director of an ArneriCorps-funded
program for disadvantaged youth certified that his son performed AmeriCorps service and was
eligible to receive two education awards when his son had never served as an ArneriCorps
Member.

Looking beyond the initial allegation, we learned that the AmeriCorps grantee was also charging
each AmeriCorps Member an activity fee that was collected in cash from each member when
they received their living allowance. The State Commission learned of this practice and ordered
the grantee to return all collected "activity fees" and to stop this practice immediately. However,
we determined that the Executive Director did not return any funds and continued to collect
activity fees from the AmeriCorps Members until his employment was terminated in October
1997. Both current and former members told us that the Executive Director collected $20.00 to
$40.00 per member during each pay period with the exception of the last pay period of the
program year. During the last pay period they claimed the Executive Director collected between
$75.00 to over $100.00 per AmeriCorps Member for what the Executive Director said was
overpayment to the member for hours they had not served.

We also learned that the grantee opened a savings account for each AmeriCorps Member and
forced the members to save money each pay period. The State Commission stopped the forced
savings and directed the grantee to repay each AmeriCorps Member the amount of money that
had been withheld. The grantee prepared individual checks for the members in the amount of
money they were due, totaling over $8,000.00, and then directed the Executive Director to give
the AmeriCorps Members their checks. We found that the Executive Director had each member
endorse their check and the Executive Director then kept the checks. The Executive Director,


                                                 12                    FY99 Semiannual Report No. I
                                                              INVESTIGATIONS
over a period of several months, either deposited the checks into his personal banking account
or cashed them at his bank.

The former Executive Director of the ArneriCorps-fimded program pled guilty to theft in Federal
District Court. He was sentenced to four months confinement; four months home detention, to
run consecutively; two years probation; a $8,100.00 fee; and 80 hours of community service.
(Investigative Report 98-014)

Alleged Conflict of Interest   - Unfounded - Referred to Management

We completed an inquiry opened after Corporation management asked us to review the
circumstances surrounding a Corporation employee, who is also a retired military officer, being
granted a waiver of the dual compensation law. The waiver was granted after a determination
was made that the employee was a member of the National Civilian Community Corps
permanent cadre. Absent the waiver, the law required forfeiture of a portion of the employee's
military retirement pay. We found no violation of law or regulation and provided our findings
to Corporation management on June 29, 1998. During the course of our inquiry we identified
some practices for which there is no governing policy or guidance. Our report to the Corporation
addressed these findings, provided our recommendations with regard to the findings, and
requested a response addressing action taken by management with regard to these findings.

On October 9, 1998, after receiving no response from Corporation management, we requested
the Corporation's Chief of Staff to advise us whether management intended to respond to our
findings. We received no response from the Chief of Staff and closed this file on October 29,
1999.

On December 14,1999, the Executive Assistant to the Corporation's General Counsel provided
a single page, undated and unnumbered document, that bears the title "Policy Regarding
Appointments to the NCCC Permanent Cadre" and the signature of the Corporation's Chief
Executive Officer. The document provides what it describes as the policy governing future
appointments to the permanent cadre of the National Civilian Community Corps. (Investigative
Report 98-030)

Alleged Worker's Compensation Fraud - Unfounded - Management Notified

We completed an investigation we opened after being notified of a possible false claim that may
have allowed a Corporation employee to receive Worker's Compensation benefits and Veteran's
disability benefits for the same injury. We reviewed payroll documents and medical records
fi-om the Department of Veterans Affairs (VA) and determined that the disability payment from
the VA was for a different injury than the reported injury under the Worker's Compensation
Claim. Our coordination with the Department of Labor Claims Examiner responsible for this


                                               13                    FY99 Semiannual Report No. 1
                                                               INVESTIGATIONS
claim disclosed that they had also reviewed the VA medical records and agreed with our findings
that the employee was entitled to receive both VA medical disability payments and Worker's
Compensation payments. We notified the Corporation's Director of Human Resources of our
findings and closed this matter as unfounded. (Investigative Report 98-033)

Grantee Provides Meals to Corporation Employees - General Counsel Rules No Violation

We completed a limited inquiry we opened after receiving information that a Corporation grantee
provided meals to attendees of a Corporation board meeting. Attendees included Corporation
employees and Corporation board members. We referred this matter to the Corporation's Office
of General Counsel. In a memorandum dated October 15, 1998, the General Counsel wrote that
he determined the fair market value of the meal was under the $20.00 per occasion exclusion
contained in 5 CFR 2635.204, concluding that there was no prohibition against Corporation
board members and staff accepting the meal. The General Counsel added that the Corporation
staff, to include those responsible for preparing board members' expense reports, were instructed
that they may not claim the portion of their per diem applicable to any meal they did not
purchase. (Investigative Report 99-005)


                      PREVIOUSLY REPORTED MATTERS

In our semiannual report for the period April 1998 through September 1998, we reported on a
completed investigation into allegations concerning a conflict of interest situation involving a
senior staff member of a Learn and Serve grantee, and unauthorized drawdowns of grant funds
by the grantee.

Our investigation determined that the Puerto Rico Department of Education (PRDE) did in fact
award a contract to Educavipro, Inc., a consulting firm owned by a personal friend of a senior
PRDE staff member. We determined that the PRDE staff member was involved somewhat in
the selection of Educavipro, Inc. as the contractor, although a lack of documentation prevented
us from determining the full extent of her involvement. We also determined that the PRDE
senior staff member subsequently retired from PRDE and began teaching at the same university
where the friend was employed, and in the same department in which the friend was employed.

We presented the results of our investigation to an Assistant U. S. Attorney (AUSA) in the U.S.
Attorney's Office in Hato Rey, Puerto Rico. The AUSA declined to prosecute the alleged
conflict of interest, citing the low dollar amount involved and the poor health of the PRDE staff
member.

Our investigation found no evidence of impropriety by the grantee concerning the drawdown of
funds after the account had been frozen. However, we did identify a practice that, if not


                                                14                    FY99 Semiannual Report No. 1
                                                              INVESTIGA TIONS
corrected, could allow this grantee to continue to make and other grantees to make unauthorized
drawdowns of Corporation grant funds managed by the Department of Health and Human
Services' (HHS) Payment Management System (PMS).

On March 9, 1998, we referred the matter to Corporation management and recommended they
develop and implement written policy that addresses procedures that must be followed when an
account is frozen. We advised Corporation management that such policy should include, at a
minimum, requiring each grants officer to routinely review the HHS daily activity report, or the
data extracted from that report, pertaining to the grantees for which they are responsible, for
discrepancies. We also informed the Corporation that we felt that particular attention should be
afforded to those grantees with fiozen accounts. And finally, we recommended that
discrepancies should be promptly reported to Corporation and HHS management, researched,
resolved, and completely documented.

The above matter was closed within the files of our office on June 30, 1998, after Corporation
management did not respond to our findings or to our requests for the status of corrective
measures that they might have been contemplating.

On February 18, 1999, a copy of an unsigned memorandum, dated July 7, 1998, with an
attached, unsigned document, dated July 2, 1998, titled "NCSA Grant Management Guidelines
GMG 98-08" was received in the OIG. The memorandum bore a handwritten note from the
Corporation's Chief Operating Officer noting that the OIG had informed Congress that the
Corporation had not acted with regard to our findings and seemingly offering the memorandum
as management's response.

On March 23, 1999, the Corporation's Director of Grants Management provided us a copy of
"NCSA Grant Management Guidelines GMG 98-08" dated March 3, 1999, and added that the
July 7, 1998 version of this document was a draft, and that the March 3, 1999 version was the
final document. The March 3, 1999 document bore the signature of the Director of Grants
Management. The guidelines appear to implement policy intended to correct the conditions we
noted above. (Investigative Report 97-02 1)




                                               15                    FY99 Semiannual Report No. 1
                                                                                   INVESTIGATIONS


                      STATISTICAL SUMMARY OF INVESTIGATIONS
                                             --                       --             -




Opened and Closed

Number of Cases Open at Beginning of Reporting Period ..............................                                 22

Number of New Cases Opened During This Reporting Period.......................

Number of Cases Closed During This Period With
 . .         . .
Significant Findings .........................................................................................        4


Number of Cases Closed During This Period With
    . .         . .
No Significant Findings ...................................................................................          16
                                                                                                                 I


Total Cases Closed This Reporting Period ......................................................                      20

Number of Cases Open at End of Reporting Period........................................                              24

Referred

Number of Cases Referred for Prosecution During
This Reporting Period ......................................................................................

Number of Cases Accepted for Prosecution During
This Reporting Period ......................................................................................
                         ~p                             --   -




Number of Cases Declined for Prosecution During
This Reporting Period ......................................................................................

Number of Cases Pending Prosecutive Review ...............................................




                                                                 16                          FY99 Semiannual Report No. I
    REVIEW OF LEGISLATION & REGULATIONS
Section 4(a)(2) of the Inspector General Act requires the Office of the Inspector General to
review and make recommendations about existing or proposed legislation and regulations
relating to the Corporation's programs and operations. OIG recommendations are to address
the impact of legislation and regulations on the economy and efficiency of the administration
of the Corporation's programs and operations. The OIG is also to make recommendations
concerning the impact of legislation and regulations on the prevention and detection of fraud
and abuse in programs and operations administered or financed by the Corporation.


                    REVIEW OF LEGISLATIVE MATTERS
The Kennedy Reauthorization Bill. OIG reviewed a bill proposed by Sen. Edward
Kennedy which would amend both the National and Community Service Act of 1990, as
amended, and the Domestic Volunteer Services Act of 1973, as amended. The Corporation's
enabling legislation originally authorized appropriations for the Corporation for fiscal years
1994, 1995 and 1996. Since that time the Corporation has existed without authorization but
has received hnds each year in annual appropriations. The proposed reauthorization would
extend the Corporation's existing legislation and authorize support for the programs noted in
the legislation through fiscal year 2004.

The proposed reauthorization bill clarifies a few terms and concepts found in the original
Acts. For example, it clarifies the total amount of awards available to an individual, and
changes the name of National Senior Volunteer Corps to National Senior Service Corps. The
proposed reauthorization bill also expands Corporation authority in certain areas. As
examples, it explicitly includes service-learning as a purpose of the National and Community
Service Act and disaster relief as a purpose of the National Civilian Community Corps; it
allows the Corporation to spend money earmarked for outreach to individuals with
disabilities in a less restricted manner than currently permitted; and, it allows the repayment
of a wider variety of educational loans than currently permitted. The proposed
reauthorization bill places few new restrictions on the Corporation. An overall effect of the
reauthorization as perceived by OIG is an endorsement of the Corporation's operations and
programs. It tends to broaden the Corporation's programs and authority.

We recommend that the reauthorization proposal be considered as an opportunity to
implement recommendations in previous OIG audit and investigative reports to improve
Corporation operations and programs. For example, under the current Act, the Corporation
has various reporting requirements with fixed deadlines. However, the Act goes on to allow
the Corporation's Chief Executive Officer to "consolidate the reports to Congress required
under the national service laws . . . into a single report, and submit the report to Congress on
an annual basis." There is no deadline stated in this section of the Act 42 U.S.C.
12561d(c)(9). With no fixed deadline, the Corporation's 1995 reports were not submitted



                                               17                    FY99 Semiannual Report No. 1
                            REVIEW OF LAWS & REGULATIONS
until December 17, 1997; the 1996 reports were not submitted until March 19, 1998; and the
1997 reports were submitted on December 21, 1998. OIG recommends that any
reauthorization bill establish a fixed date for submission of any such consolidated report so
that Congress receives timely information for its oversight needs.

OIG has reported problems in the area of service hour reporting by Corporation grantees.
Under Corporation programs, individuals become eligible for post service education benefits
depending on the type and extent of service performed in a given time period. The
Corporation has not promulgated effective requirements on documenting service hours
performed. A reauthorization bill could place a requirement on the Corporation to produce
standards under which Corporation grantees must document service hours performed.

OIG has reported problems in the area of the National Trust data. Currently, the Corporation
provides membership rosters to Corporation grantees, with instructions to verify the
information contained therein and return the membership roster to the Corporation. This
information is entered in Corporation systems to determine, among other things, membership
statistics and trust liabilities. The Corporation has, historically, had a very difficult time in
obtaining the verified membership rosters from its grantees, and has done little to enforce the
requirement with its grantees. Consequently, the Corporation utilizes, in part, unverified
information on enrollment and membership. Since the Corporation is reluctant to act, OIG
recommends that a reauthorization bill require the Corporation to obtain confirmed
information on program enrollment and membership, even if suspension of funding of a
noncompliant grantee is needed.

Federal Vacancies Reform Act. OIG reviewed the Federal Vacancies Reform Act and
discussed its implications with the Corporation's Office of the General Counsel. In part, the
Act limits the amount of time for which a person can serve in an acting capacity in a
Presidentially-appointed position. The OGC agreed that the Corporation's Chief Financial
Officer (CFO) position is, as a Presidential appointment, covered by the Act. The OGC also
agreed that the current holder of the Corporation's Chief Operating Officer position was also
the de facto acting CFO. We agreed that, absent an intervening act (such as a nomination or
appointment to the CFO position), the acting CFO's authority would expire in early August
1999. We also agreed that actions taken after that date by the acting CFO could not, pursuant
to restrictions in the Act, be ratified.

The National Community Service Act creates two positions titled "Managing Directors,"
each to be appointed by the President, by and with the advice and consent of the Senate. The
relevant language of the NCSA states: "There shall be in the Corporation 2 Managing
Directors . . . " (emphasis added) (42 U.S.C. 12651e(a)(l)). The Act does not closely define
the roles of the managing directors. The OGC did not agree that the Corporation's two
managing director positions are covered by the Vacancies Reform Act, asserting that because
the functions of the positions are not statutorily defined, it cannot be concluded that anyone
at the Corporation is filling the positions in an acting capacity. The OIG asserts that because


                                                18                    FY99 Semiannual Report No. I
                            REVIEW OF LA WS & REGULATIONS
there is an affirmative statutory requirement to fill these positions, they are covered by the
Vacancies Reform Act.

Sunshine Act Regulation. The Government in the Sunshine Act requires Federal agencies
to conduct certain business meetings in a manner that is open to the public. There are
specific exceptions to this requirement, and particular procedures to follow for closing and
documenting a meeting pursuant to an exception. Under the terms of the Sunshine Act, the
Corporation is required to promulgate regulations implementing the Sunshine Act and has
not yet done so. The Corporation's OGC agreed with this conclusion and the Corporation
has begun drafting a regulation to implement the Government in the Sunshine Act.

Corporation Appropriations. OIG reviewed fiscal year 1999 appropriations language for
the Corporation for National Service to inform OIG staff about restrictions on the use of
Corporation funds and to determine the Corporation's and the OIG's responsibilities under
appropriation language which established reporting requirements concerning the expenditure
of certain appropriations to "improve financial management and other urgent program
administration activities." This language required the Corporation to develop a detailed plan
for the expenditure of $3,000,000 for the above purposes. The language required the
Corporation to update the plan every 60 days, and required the OIG to comment on the
original plan and each reiteration. A detailed discussion of the Corporation's response to this
requirement, and OIG's comments thereto, can be found beginning at page 3.

U.S. House of Representatives Committee on Appropriations language included a
requirement that all OIGs funded under the Department of Veterans Affairs and Housing and
Urban Development, and Independent Agencies Appropriations Act report to the Committee
on issues of diversity in OIG staffing levels (HR 105,610, Title IV, General Provisions). In
compliance with this requirement, we issued our Report on Issues of Diversity on January 4,
1999 to both the House and Senate committees on appropriations.


       REVIEW OF CORPORATION-PROPOSEDREGULATIONS

During this reporting period, OIG reviewed and commented on proposed regulations
concerning the Corporation's National Service Trust so that the proposed regulation more
closely followed the intent of the NCSA. OIG also commented on the Corporation's
proposed Privacy Act and System of Records regulations to help ensure that OIG controlled
access to OIG systems of records under Privacy Act requests. Finally, OIG reviewed and
commented on the Corporation's Debt Collection Regulation, pointing out internal
inconsistencies in the Corporation's proposed regulation on debt collection efforts.




                                               19                   FY99 Semiannual Report No. 1
                         TABLE I
     INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS
                                                                                          -



                                                                    Federal Costs
                                                 Number       Questioned      Unsupported

                                                                 (Dollars in rhousands)


     For which no management decision had
     been made by the commencement of the                 8
     reporting period

     Which were issued during the reporting
     period                                          -
                                                     2


     Subtotals (1 plus 2)                             10


     For which a management decision was
     made during the reporting period                     7


     (i) dollar value of disallowed costs


     (ii) dollar value of costs not disallowed       -


     For which no management decision had
     been made by the end of the reporting           -3
                                                     -
     period (3 minus 4)



6.   Reports with questioned costs for which              1        $547
     no management decision was made within
     six months of issuance




                                            20                FY99 Semiannual Report No. I
                          TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                      Number           Dollar Value


                                                        (Dollars in thousands)

A.   For which no management decision had been
     made by the commencement of the reporting          1                    $1,609
     period


B.   Which were issued during the reporting period


C.   For which a management decision was made
     during the reporting period

     (i) dollar value of recommendations that were
         agreed to by management
        based on proposed management action


        based on proposed legislative action


     (ii) dollar value of recommendations that were
          not agreed to by management


D. For which no management decision has been
     made by the end of the reporting period
     Reports for which no management decision was
     made within six months of issuance




                                        21              FY99 Semiannual Report No. I
                        TABLE I11
  SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                                Federal               Mgmt       Status as of
 Report                                                         Dollars              Decision    March 31,
 Number                          Title                         Questioned             Due*          1999

                                                          (Dollars in thousands)

98-24      Audit of the Corporation's
           Procurement and Contracting                                $547          3/29/99           1
           Processes and Procedures**



* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within 6 months of the final report issuance.

** T h ~ report
         s      also included recommendations that funds be put to better use in the amount of $1.6 million
(Table 11).



1 - Management Decisions must be made within 180 days of the final report issuance. OIG received the
Corporation's Proposed Management Decision for review and concurrence on March 30, 1999, the last
day of the reporting period (182 days after the report's issuance). The report, discussed in our September
30, 1998, Semmiannual Report, identified pervasive weaknesses in the Corporation's procurement
operations that left it vulnerable to fraud, waste, and abuse. In a memorandum to the Corporation dated
April 22, 1999, OIG disagreed with the management decision because the management decision proposes
that the same personnel responsible for the deficiencies in procurement operations will be responsible for
the corrective actions, without any indication that these individuals have received training and are now
capable of developing and implementing corrective actions.




                                                    22                             FY99 Semiannual Report No. I
                                TABLE IV
                  REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                      REPORTS WITHOUT FINAL ACTION

                                                                            Final
Report                                                       Date           Action           Status Of
Number                        Title                         Issued          Due*            Final Action

           Review of the New Orleans                                       3/5/97       Final Action
           Youth Action Corps                                                           has not been
                                                                                        completed and/or
           Audit of ACORN Housing                                         3/29/97       reported to OIG
           Corporation
           Audit of Oregon Youth
           Conservation Corps
           Audit of National Service Trust
           Fund Fiscal Year 1995 and 1994
           Financial Statements
           Recommended Improvements to
           National Service Trust Fund
           Operations
           Audit of West Virginia
           Conservation and Service Corps
           Summary of the Results of
           Audits and Reviews of Grants
           Fiscal Years 1995 through 1997
           Auditability Assessment of the
           Corporation's FY97 Statement of
           Financial Position**

* Under section 6009 of the Federal Acquisition StreamliningAct of 1994, as amended, a final action must
be completed within 12 months of the report's issuance.

** The findings in this report were included in previous OIG audit assessments, as well as in the audit of
the Corporation's fiscal year 1997 Statement of Financial Position. The Corporation has incorporated its
corrective action on these reports onto its "Action Plan," and considers all open corrective actions related
to auditability issues overdue.




                                                    23                         FY99 Semiannual Report No. I
                               TABLE V
                   STATUS OF RECOMMENDATIONS ON
                  CORPORATION MANAGEMENT ISSUES

                                               Number of      Corrective
                                           Recommendations     Action           Open
                                              in Reports*    Completed**   Recommendations


Corporation Finan cia1 Management
 Auditability Survey & Follow-up                177              76              101
 Reports (OIG Audit Reports 96-38,
 97-09,97-29,98-23,99-01,and 99-02)
 Audit of the Corporation's                      26                0              26
 Procurement and Contracting
 Operations (OIG Audit Report 98-24,
 issued September 30, 1998)


Trust Fund Operations
 Audit of National Service Trust Fund             11               7               4
 Fiscal Year 1995 and 1994 Financial
 Statements (OIG Audit Report 97-27,
 issued March 10, 1997)
 Recommended Improvements to                     12                5               7
 National Service Trust Fund
 Operations (OIG Audit Report 97-31,
 issued April 30, 1997)


EDP Systems
 Assessment of Computer Difficulties              21               8              13
 Associated With the Year 2000 (OIG
 Audit Report 98-20, issued July 7,1998)




                                           24                     FY99 Semiannual Report No. I
                            TABLE V - CONTINUED
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                                      Number of        Corrective
                                                  Recommendations       Action            Open
                                                     in Reports*      Completedf*    Recommendations


Grant Oversight and Monitoring
 Review of Training and Technical
 Assistance (OIG Audit Report 98-01,
 issued November 3, 1997)
 Review of Corporation Pre-Award
 Financial Assessment of Grant
 Applicants (OIG Audit Report 98-02,
 issued April 27, 1998)
 Assessment of AmeriCorps Service
 Hour Reporting (OIG Audit
 Report 98-19, issued August 27,1998)
 Review of the Corporation's Liability
 for Post-service Benefits Related to
 Former Commission on National and
 Community Service Grants (OIG Audit
 Report 99-06, issued August 27, 1998)

Audit Resolution
 OIG FY97 Semiannual Report
 (issued April 30, 1997)

Total

* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within 6 months of the final report issuance and corrective actions
completed within one year.

**The Corporation has not implemented an audit resolution system as required by OMB Circular A-50,
Audit Resolution. Therefore the information on corrective actions completed is based on OIG records and
the results of OIG follow-up audits when available.




                                                  25                        FY99 Semiannual Report No. I
